No. 20-982
In the

Supreme Court of the United States

SHARON LYNN BROWN,
Petitioner,
v.
POLK COUNTY, WISCONSIN, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF IN OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI
Danielle B. Tierney,
Counsel of Record
Lori M. Lubinsky
A xley Brynelson, LLP
Two East Mifflin Street,
Suite 200
Madison, WI 53703
(608) 257-5661
dtierney@axley.com
Counsel for Respondents
302330

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Did the Seventh Circuit Court of Appeals correctly
conclude that the constitutional standard for conducting a
manual cavity search of a pretrial detainee was reasonable
suspicion based on prior precedent from the United States
Supreme Court and other Courts of Appeals?

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 2

II. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR DENYING THE WRIT . . . . . . . . . . . 8
I.

The Decision from the Seventh Circuit
Court of Appeals is Not in Conflict with
Any Other Relevant Decisions of Any
United States Court of Appeals, State
Court of Last Resort, or This Court . . . . . . . . . . 8

II. This Petition Does Not Present an Issue of
National or Immediate Urgency  . . . . . . . . . . . . 19
III. None of the Reasons Proffered by Petitioner
Make this Case the “Proper Vehicle”
for the Issue Presented.  . . . . . . . . . . . . . . . . . . . 21
IV. The Seventh Circuit Decision was Correct  . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Arizona v. Gant,
556 U.S. 332, 129 S. Ct. 1710, 173 L. Ed. 2d 485
(2009)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  14, 18
Bell v. Wolfish,
441 U.S. 520, 99 S. Ct. 1861, 60 L. Ed. 2d 447
(1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Birchfield v. North Dakota,
136 S. Ct. 2160, 195 L. Ed. 2d 560 (2016) . . . . . . . . . 23
Chapman v. Nichols,
989 F.2d 393 (10th Cir. 1993) . . . . . . . . . . . . . . . . . . . 21
Chimel v. California,
395 U.S. 752, 89 S. Ct. 2034, 23 L. Ed. 2d 685
(1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Florence v. Board of Chosen Freeholders
of County of Burlington,
566 U.S. 318, 132 S. Ct. 1510, 182 L. Ed. 2d 566
(2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Griffin v. Wisconsin,
483 U.S. 868, 107 S. Ct. 3164, 3168, 97 L.Ed.2d
709 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  25-26
Hill v. Koon,
977 F.2d 589 (9th Cir. 1992) . . . . . . . . . . . . . . . . . . . . 12

iv
Cited Authorities
Page
Hinkle v. Beckham County Board
of County Commissioners,
962 F.3d 1204 (10th Cir. 2020) . . . . . . . . . . . . . . . 18, 19
Isby v. Duckworth,
175 F.3d 1020 (7th Cir. 1999)  . . . . . . . . . . . . . . . . . . . 12
Jersey v. T.L.O.,
469 U.S. 325, 105 S. Ct. 733, 83 L. Ed. 2d 720
(1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Mary Beth G. v. City of Chicago,
723 F.2d 1263 (7th Cir. 1983) . . . . . . . . . . . . . . . . . . . 21
Maryland v. Buie,
494 U.S. 325, 110 S. Ct. 1093, 108 L. Ed. 2d.
276 (1990) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Maryland v. King,
569 U.S. 435, 133 S. Ct. 435, 133 S. Ct. 1958
(2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Mitchell v. Wisconsin,
139 S. Ct. 2525, 204 L. Ed. 2d 1040 (2019) . . . . . . . . 23
Pell v. Procunier,
417 U.S. 817, 94 S. Ct. 2800, 41 L. Ed. 2d 495
(1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Cited Authorities
Page
People v. Hall,
886 N.E.2d 162 (N.Y. 2008)  . . . . . . . . . . . . . . . . . . . . 13
Rodriques v. Furtado,
950 F.2d 805 (1st Cir. 1991)  . . . . . . . . . . . . . . . . . 13, 15
Sanchez v. Pereira-Castillo,
590 F.3d 31 (1st Cir. 2009)  . . . . . . . . . . . . . . . . . passim
Schmerber v. California,
384 U.S. 757, 86 S. Ct. 1826, 16 L. Ed. 2d 908
(1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 24, 25
Skinner v. Railway Labor Executives’ Ass’n,
489 U.S. 602, 109 S. Ct. 1402, 103 L. Ed. 2d 639
(1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 25
Spencer v. Roche,
659 F.3d 142 (1st Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 13
Swain v. Spinney,
117 F.3d 1 (1st Cir. 1997) . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Booker,
728 F.3d 535 (6th Cir. 2013) . . . . . . . . . . . . . .  15, 16, 17
United States v. Edwards,
415 U.S. 800, 94 S. Ct. 1234, 39 L. Ed. 2d 771
(1974) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13, 18

vi
Cited Authorities
Page
United States v. Fowlkes,
804 F.3d 954 (9th Cir. 2015) . . . . . . . . . . . . . . . . .  17, 18
United States v. Robinson,
414 U.S. 218, 94 S. Ct. 467, 38 L. Ed. 2d 427
(1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Vaughan v. Ricketts,
950 F.2d 1464 (9th Cir.1991) . . . . . . . . . . . . . . . . . . . . 12
Winston v. Lee,
470 U.S. 753, 105 S. Ct. 1611, 84 L. Ed. 2d 662
(1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16, 24

Statutes and Other Authorities
U.S. Constitution Amendment IV  . . . . . . . . . . . . . passim
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Supreme Court Rule 10 . . . . . . . . . . . . . . . . . . . . . . . . 8, 22
Supreme Court Rule 10.a  . . . . . . . . . . . . . . . . . . . . . . . . 13
Supreme Court Rule 12.7  . . . . . . . . . . . . . . . . . . . . . . . 2, 7

1
INTRODUCTION
This case involves the application of established case
law regarding searches of pretrial detainees. Relying
on that established case law, established by this Court
and numerous United States Courts of Appeals relying
on decisions from this Court, the Seventh Circuit Court
of Appeals properly concluded that a cavity search
of a pretrial detainee was justified upon a showing of
reasonable suspicion.
Throughout the course of this litigation, PetitionerAppellant-Plaintiff Sharon Lynn Brown (‘Petitioner”)
urged the District Court and Seventh Circuit Court of
Appeals to “adopt a higher standard of suspicion and
require a warrant based on probable cause” before a
pretrial detainee be required to submit to a cavity search.
[A-App 10.] She argued that cases involving searches that
involved any intrusion into an individual’s body required
more than reasonable suspicion. However, in so arguing,
Petitioner disregarded this Court’s holdings in Bell v.
Wolfish and Florence v. Board of Chosen Freeholders of
County of Burlington.
In filing this current petition, Petitioner again seeks
to minimalize considerations of jail safety and security
addressed by this Court in Bell and Florence, arguing
that inapplicable cases involving searches in criminal
contexts mandate that a warrant be required for a
manual body-cavity search of a pretrial detainee. The
District Court, the Seventh Circuit Court of Appeals,
and other United States Courts of Appeals – all relying
on direction and authority from this Court – have come
to the opposite conclusion, holding that cavity searches

2
of pretrial detainees require only reasonable suspicion.
The law is settled on the issue, and Petitioner’s position
is unsupportable.
This current petition should be denied because the
Seventh Circuit Court of Appeals’ decision is not in conflict
with any relevant decision of another United States Court
of Appeal, this Court, or any state court of last resort. To
the contrary, the decision issued by the Seventh Circuit
Court of Appeals is consistent with controlling and
persuasive precedent regarding cavity searches of pretrial
detainees. The decisions cited by Petitioner in support of
her petition are all distinguishable and there is no basis
for overturning the established precedent of this Court
and other United States Courts of Appeals.
STATEMENT OF THE CASE
I.

Factual Background

1. In May 2017, the Polk County Jail (the “Jail”)
had a policy in place related to cavity searches. [Dkt. 14
(9:6-13); Dkt. 12, ¶ 10.1] The policy defined a “body cavity
search” as “an inspection and penetration of the anal or
vaginal cavity of a person that is conducted manually, by
means of an instrument, apparatus, or object, or in any
other manner while the person is detained or confined…”
[Dkt. 12-1 (POLK000011).] The policy required that all
cavity searches be performed by a physician, physician’s
assistant, or registered nurse licensed to practice in
1. “Dkt.” refers to the docket entry and corresponding
document in the District Court record, cited pursuant to Supreme
Court Rule 12.7.

3
Wisconsin. [Dkt. 12-1 (POLK000016).] The policy granted
corrections officers the ability to request a cavity search
when an inmate is “detained for any lawful reason, and
the corrections officer has reasonable grounds to believe
that the person is concealing weapons, contraband, or
evidence in a body cavity, or otherwise believes that the
safety and security of the jail would benefit from a body
cavity search” of the inmate. [Dkt. 12-1 (POLK000016).]
The policy required the correctional officer to contact the
shift supervisor and Jail administrator for approval for the
cavity search. [Dkt. 12-1 (POLK000016).] Staff was also
required to contact a physician to make arrangement for
the search. [Dkt. 12-1 (POLK000016).]
2. Petitioner arrived at the Jail just after midnight on
May 3, 2017 after she had been arrested for retail theft.
[Dkt. 12, ¶ 6.] When she arrived at the Jail, Petitioner was
house in K Pod with other inmates, including Jacqueline
Duke (“Duke”) and Amy Nelson (“Nelson”).[Dkt. 12, ¶¶ 8,
9; Dkt. 15, ¶ 5.]
On May 4, 2017, Duke approached Jail Correctional
Officer Steven Hilleshiem (Hilleshiem) during medication
pass and told him that Petitioner was concealing a large
amount of meth in her body cavity. [Dkt. 14, 17:2-14; Dkt.
19-1 (POLK000002); Dkt. 14 (6:12-20).] After he received
the report from Duke, Hilleshiem spoke with Jail Nurse
Donna Johnson (“Nurse Johnson”), Sergeant Matt Thayer,
and Sheriff Pete Johnson about Duke’s report. [Dkt. 14,
19:21-21:7; Dkt. 19-1 (POLK000002).] Nurse Johnson
subsequently spoke with Petitioner, Nelson, and another
inmate (she did not recall the name of this inmate) in K
Pod. [Dkt. 16, ¶¶ 10-13.]

4
Nelson told Nurse Johnson that she received
information from Petitioner, including what drugs
Petitioner was concealing, the manner in which Petitioner
was concealing the drugs, that Petitioner had asked
other girls in the Pod for something in which to conceal
the drugs, and that Petitioner was concerned she might
absorb the drugs because of how she had them concealed
in her body. [Dkt. 15, ¶ 15.] Nelson also told Nurse Johnson
that Petitioner told inmates, including Nelson, that she
was concealing drugs, specifically meth, inside her body
cavity. [Dkt. 15, ¶¶ 9, 13, 15.]
After speaking with Nelson, Petitioner, and the
other inmate, Nurse Johnson came to the conclusion
that the report about Petitioner was likely credible, that
the report warranted further investigation, and that
Petitioner should undergo a cavity search. [Dkt. 16, ¶14.]
Hilleshiem also came to the conclusion that a cavity search
was reasonable based on the report he received as well as
his years of interaction with inmates and working with
people. [Dkt. 14, 28:21-29:3.] Nurse Johnson and the staff
members at the Jail discussed the situation and shared the
information that each of them had obtained from speaking
with Petitioner and the other inmates. [Dkt. 16, ¶¶ 15, 16.]
They also shared their opinions and recommendations,
and expressed concerns for Petitioner’s safety, as well as
the safety and security of the Jail. [Dkt. 16, ¶¶ 16; Dkt. 14
(18:17-19:2; 40:4-9; 40:15-20).]
After the Jail staff discussed their opinions, they
collectively came to the conclusion that Petitioner should
be sent for a cavity search, and Chief Deputy Wes Revels
was contacted for approval in accordance with the policy.
[Dkt. 16, ¶ 16; Dkt. 14, (23:10-14); Dkt. 19 (5:14-6:2; 18:1-9);

5
Dkt. 12-1 (POLK000016); Dkt. 19 (5:14-6:2).] Hilleshiem
spoke to Revels and gave him information about the
situation. [Dkt. 14, (23:10-14); Dkt. 19 (18:1-15; 19:5-7;
20:1-5).] Hilleshiem also told Revels that the information
about the situation that he had obtained met the policy
requirements for a cavity search. 2 [Dkt. 19 (22:16-20;
24:2-6).] Revels authorized the cavity search based on
the information he received from Hilleshiem. 3 [Dkt. 19
(27:1-6).]
Petitioner was cuffed and escorted to the back of a
squad car by Deputy Anthony Lehman. [Dkt. 17 (111:1924); Dkt. 18 (14:10-13).] Jail staff told Petitioner that she
would be going to St. Croix Hospital for a cavity search.
[Dkt. 18 (12:2-3; 14:10-13); Dkt. 17 (112:8-10; 114:8-19).]
Ultimately, Petitioner met with a nurse and doctor,
who explained to Petitioner that the doctor would be
performing the cavity search. [Dkt. 17 (115:3-13; 116:1-3).]
When the nurse and doctor arrived, Deputy Lehman left
the examination room. [Dkt. 18 (14:24-15:2)] The doctor
explained to Petitioner that he would be performing an
2. Contrary to Petitioner’s assertion, there is no evidence
that the request for a body cavity search was limited to only
Petitioner’s vagina. [Dkt. 14 (16:19-21 (Q: “Okay. So you requested
authorization to do a cavity search of Ms. Smith, correct? A: Yes.”
(emphasis added)); 28:5-7); Dkt. 19 (23:1-5; 28:21-25) (authorizing
“cavity search” generally).]
3. Revels testified during his deposition that he assumed the
contraband was hidden in Petitioner’s vagina, but conceded that
it was an assumption and that he was not specifically told where,
internally, the contraband was allegedly held. [Dkt. 19 (31:5-32:8).]
Indeed, there is no evidence that the sources indicated in which
body cavity the contraband was purportedly concealed. [Dkt. 14,
17:2-14; Dkt. 19-1 (POLK000002); Dkt. 16, ¶ 10; Dkt. 15, ¶ 9.]

6
ultrasound of her abdomen, a vaginal examination, and
an anal examination, in that order. [Dkt. 17 (116:4-12).]
The examination was very brief and took between one
and five minutes. [Dkt. 18 (14:23-15:2); Dkt. 17 (117:712).] The doctor used an external probe to conduct the
abdominal ultrasound and a speculum for the vaginal and
anal examinations. [Dkt. 17 (117:13-20; 119:6-14; 119:25120:10).] The doctor did not locate any foreign bodies in
Petitioner’s body cavities during the examination. [Dkt.
14 (30:12-23); Dkt. 18 (15:24-16:3).]
After the examination, Deputy Lehman transported
Petitioner back to the Jail. [Dkt. 18 (16:9-11).] Petitioner
requested to stay in a holding cell when she returned. [Dkt.
17 (123:13-25); Dkt. 13 (13:2-24; 15:2-6).] She was permitted
to stay in the holding cell until she was transported to
Barron County, where she had a warrant, early the next
morning. [Dkt. 17 (123:13-25); Dkt. 13 (13:2-24; 15:2-6).]
II. Procedural History
1. On May 22, 2018, Petitioner filed suit against
Defendants Polk County, Wisconsin, CO Steven Hilleshiem,
CO Janet Lee, Chief Deputy Wes Revels, and Polk County
Correctional Officers John Doe 1 through 10 (collectively
the “County”) in the United States District Court for
the Western District of Wisconsin (the “District Court”).
[Dkt. 1.] Petitioner brought two claims against the County
pursuant to 42 U.S.C. § 1983, claiming that the cavity
search and the County’s failure to train its employees
violated her Fourth Amendment rights. [Dkt. 1.] The
District Court had original jurisdiction of Petitioner’s
claims pursuant to 28 U.S.C. § 1331. [See Dkt. 1.]

7
2. The County filed a motion for summary judgment
on April 19, 2019 and sought dismissal of Petitioner’s
claims. [Dkts. 11; 20.] In response to the motion (as it
relates to the issue pending before this Court), Petitioner
argued that probable cause or a warrant was required
prior to the cavity search. [Dkt. 22, pp. 10-17.]
On August 16, 2019, the District Court granted the
County’s motion for summary judgment. [Dkt. 39.] The
District Court rejected Petitioner’s argument regarding
the necessity of probable cause and, relying on established
precedent, applied the reasonable suspicion standard to
the case. [Dkt. 39, pp. 9-13.] The District Court concluded
that the Defendants had the requisite reasonable suspicion
required to request Petitioner’s body cavity search, thus
satisfying Petitioner’s Fourth Amendment protections.
[Dkt. 39, (pp. 10; 13; 18).] The Court dismissed all claims.
[Dkt. 39 (p. 18).]
3. On September 4, 2019, Petitioner appealed the
District Court decision to the Seventh Circuit Court of
Appeals. [Dkt. 43.] On appeal, Petitioner challenged the
dismissal of her Fourth Amendment search claim against
Chief Deputy Revels, CO Hilleshiem, and Polk County,
Wisconsin. [See Doc. 6.4] Petitioner’s appeal argued that
the scope and justification for initiating the search were
unconstitutional. [See Doc. 6.] Specifically, Petitioner
again argued that probable cause or a warrant was
required prior to the cavity search. [Doc. 6, pp. 17-22.]

4. “Doc.” refers to the docket entry and corresponding
document in the Seventh Circuit Court of Appeals record, cited
pursuant to Supreme Court Rule 12.7.

8
On July 13, 2020, the Seventh Circuit Court of Appeals
affirmed the District Court’s rulings, again concluding
that the proper constitutional standard governing the
cavity search was reasonable suspicion and not probable
cause. [App. 9, 11.] The Seventh Circuit Court of Appeals
specifically rejected Petitioner’s request to “adopt a higher
standard of suspicion and require a warrant based on
probable cause.” [App. 10.]
On July 27, 2020, Petitioner filed a petition for
“Combined En Banc and Panel Rehearing.” [Doc. 28.] On
August 18, 2020, the Seventh Circuit Court of Appeals
denied both petitions. [Doc. 31.]
REASONS FOR DENYING THE WRIT
Under the Supreme Court Rules, a petition for a
writ of certiorari will be granted only for compelling
reasons. [Rule 10.] Rule 10 sets forth criteria indicating
“the character of the reasons the Court considers . . .”
in determining whether to grant a petition. Petitioners
have not established meritorious grounds satisfying
these conditions and, as such, this Court should deny the
Petition.
I.

The Decision from the Seventh Circuit Court of
Appeals is Not in Conflict with Any Other Relevant
Decisions of Any United States Court of Appeals,
State Court of Last Resort, or This Court.

Petitioner is incorrect when she asserts that “[f]ederal
and state courts are divided” regarding the constitutional
standard governing cavity searches of pretrial detainees.
Her contention that the decision from the Seventh Circuit

9
Court of Appeals (the “Decision”) is the sole decision
that has ever concluded that manual cavity searches are
governed by reasonable suspicion, rather than probable
cause or a warrant, is simply not accurate. There are,
indeed, other decisions from Courts of Appeals across
the country that support the Decision. Additionally, the
cases she cites to suggest the existence of a circuit split
are distinguishable or inapplicable.
1. It is well-settled law that pretrial detainees retain
Fourth Amendment protection against unreasonable
searches and seizures. Bell v. Wolfish, 441 U.S. 520, 545, 99
S. Ct. 1861, 60 L. Ed. 2d 447 (1979). More than forty years
ago, this Court established that pretrial detainees’ Fourth
Amendment rights were limited by needs of a penal
institution with custody of that pretrial detainee; namely,
the safety and security of the institution. Id. at 545-47.
The Court held that jail and prison staff “must be free to
take appropriate action to ensure the safety of inmates
and corrections personnel….” Id. at 547. Therefore, Bell
established that institutional practices that may infringe
on a constitutional right are “evaluated in the light of the
central objective of prison administration, safeguarding
institutional security.” Id. (citations omitted). This is
the case because a pretrial detainee “simply does not
possess the full range of freedoms of an unincarcerated
individual.” Id. at 546.
Pursuant to the holding in Bell, prison administrators
are afforded “wide-ranging deference in the adoption
and execution of policies and practices” that they deem
appropriate to “preserve internal order and discipline and
to maintain institutional security.” Id. at 547 (citations
omitted). This Court noted that “in the absence of

10
substantial evidence in the record to indicate that [prison
and jail] officials have exaggerated their response to these
conditions, courts should ordinarily defer to their expert
judgment in such matters.” Id. at 548 (emphasis added;
quoting Pell v. Procunier, 417 U.S. 817, 827, 94 S. Ct. 2800,
41 L. Ed. 2d 495 (1974)).
With that understanding, this Court has held that
warrantless strip and cavity searches of pretrial detainees
may be conducted subject to a reasonableness test under
the Fourth Amendment. Bell, 441 U.S. at 558-59. The test
of reasonableness under the Fourth Amendment is “not
capable of precise definition or mechanical application”
and each case calls for an analysis of the balance between
“the need for the particular search against the invasion
of personal rights that the search entails.” Id., at 559. To
assess reasonableness, courts have been instructed to
“consider the scope of the particular intrusion, the manner
in which it is conducted, the justification for initiating
it, and the place in which it is conducted.” Id. (citations
omitted).
More than thirty years after this Court decided Bell,
the Court was asked to address a related issue: namely,
“whether undoubted security imperatives involved in jail
supervision override the assertion that some detainees
must be exempt from the more invasive procedures at
issue absent reasonable suspicion of a concealed weapon
or other contraband.” Florence v. Board of Chosen
Freeholders of County of Burlington, 566 U.S. 318, 330,
132 S. Ct. 1510, 182 L. Ed. 2d 566 (2012) (emphasis added).
Florence addressed the legality of a jail policy requiring
a strip search of all pretrial detainees prior to entering
the general jail population, regardless of the offense each

11
individual was arrested for and without any reasonable
suspicion that the detainee was concealing contraband.
Id. at 324-25. This Court began its analysis with its prior
opinion in Bell, noting that “correctional officials must be
permitted to devise reasonable search policies to detect
and deter the possession of contraband in their facilities.”
Id. at 328. Ultimately, this Court concluded that the policy
at issue comported with the Fourth Amendment and this
Court’s prior holding in Bell because the policy “struck a
reasonable balance between inmate privacy and the needs
of the institutions.” Id. at 339.
Both Bell and Florence established exceptions to
the Fourth Amendment’s warrant requirement in penal
institutions. Relying on the holdings in both cases, Courts
of Appeals have previously addressed the issue of manual
body cavity searches in jail settings and have concluded
that such searches are permissive upon a showing of
reasonable suspicion:
First Circuit: Sanchez v. Pereira-Castillo, 5 590 F.3d
31 (1st Cir. 2009)
The First Circuit concluded that the manual rectal
search of an inmate was reasonable when the search
was based on suspicion that the inmate was concealing
contraband and “carried out for the legitimate penological
objective of locating and removing contraband from the
prison system.” Sanchez, 590 F.3d at 43-44. The First
Circuit drew on this Court’s decision in Bell in its decision,
noting that although the searches in Bell were visual cavity
searches and the search at issue was a manual cavity
5. Curiously, Petitioner cites this decision for the proposition
that probable cause was required for the manual cavity search.
[Petition, 22-23.] The case clearly holds to the contrary.

12
search, the Bell “framework … still guide[d] the inquiry.”
Id. at 43 (citation omitted).
Seventh Circuit: Isby v. Duckworth, 175 F.3d 1020
(7th Cir. 1999)
The Seventh Circuit previously held that a digital
rectal exam of an inmate comported with the Fourth
Amendment when the prison staff had reason to believe
the plaintiff was concealing contraband internally. Isby,
175 F.3d at *1-2.
Ninth Circuit: Hill v. Koon, 977 F.2d 589 (9th Cir.
1992)
In Hill v. Koon, the Ninth Circuit confirmed that
a digital body cavity search of an inmate was justified
under Fourth Amendment jurisprudence when there was
reasonable suspicion that the person to be searched was
concealing contraband. Hill, 997 F.2d 589, at *1. The Court
in Hill cited another decision from the Ninth Circuit,
Vaughan v. Ricketts, which stated that Bell “clearly
established that the Fourth Amendment requires that
rectal searches in prisons be conducted with reasonable
cause and in a reasonable manner.” Id. (citing Vaughan
v. Ricketts, 950 F.2d 1464, 1469 (9th Cir.1991)); Vaughan,
950 F.2d at 1968-69 (citing Bell, 441 U.S. at 559).
Though Petitioner suggests that other Courts of
Appeals have issued decisions contrary to the Seventh
Circuit’s decision herein and held that such searches
are permitted only after the issuance of a warrant, the
cited cases6 are all factually and legally distinguishable
6. Petitioner also cites state appellate court decisions to
support her position. [Petition, 24-26.] However, her citations

13
from this Petition. As such, her assertion regarding the
existence of a circuit split is inaccurate.
First Circuit: Spencer v. Roche, 659 F.3d 142 (1st Cir.
2011); Sanchez, 590 F.3d 31; Rodriques v. Furtado, 950
F.2d 805 (1st Cir. 1991).
The First Circuit decision in Spencer is inapposite
because it addressed the legality of a search incident to
arrest7 – not the legality of cavity search of a pretrial
detainee in a penal institution. 8 Spencer v. Roche, 755
F. Supp. 2d 250, 255-56, 259 (D. Mass. 2010); Spencer
v. Roche, 659 F.3d at 144. The legal considerations
to mid-level appellate courts are inapposite, as the rules of this
Court note that considerations for granting a writ of certiorari can
include whether a United States Court of Appeals “has decided an
important federal question in a way that conflicts with a decision
by a state court of last resort.” [Rule 10.a.] Only one of the state
court cases cited by Petitioner was issued by a state court of last
resort: People v. Hall, 886 N.E.2d 162 (N.Y. 2008). All other cases
cited by Petitioner were issued by mid-level appellate courts. [See
Petition, pp. 24-26.] Hall is distinguishable from the present case in
that it dealt with a search incident to arrest, rather than a search
of a detainee in the general jail population. Hall, 886 N.E.2d at
164-65. The considerations of Bell and Florence, which controlled
the case subject to this Petition, were not at issue in Hall, making
the case irrelevant.
7. “The search incident to arrest need not occur at the scene
of the arrest, but ‘may legally be conducted later when the accused
arrives at the place of detention.’” Spencer, 755 F. Supp. 2d at 259
(quoting United States v. Edwards, 415 U.S. 800, 803, 94 S. Ct.
1234, 39 L. Ed. 2d 771 (1974)).
8. The plaintiff in Spencer also did not challenge the legality
of the visual or digital cavity search on appeal; he challenged the
legality of an x-ray, which he contended went beyond the scope of
the warrant that had been obtained. Spencer, 659 F.3d at 145-46.

14
surrounding searches incident to arrest differ from those
related to searches within a penal institution. The search
incident to arrest exception to the Fourth Amendment’s
warrant requirement is founded on the interests of
officer safety and preservation of evidence, whereas the
warrant exception for searches within a penal institution
is founded on penal safety and security of officers and
other inmates. Arizona v. Gant, 556 U.S. 332, 338, 129
S. Ct. 1710, 1716, 173 L. Ed. 2d 485 (2009) (citing United
States v. Robinson, 414 U.S. 218, 230–234, 94 S. Ct.
467, 38 L. Ed. 2d 427 (1973); Chimel v. California, 395
U.S. 752, 763, 89 S. Ct. 2034, 23 L. Ed. 2d 685 (1969));
Bell, 441 U.S. at 546-47. Courts have tended to favor an
individual’s interest in privacy over the government’s
interest in collecting evidence in criminal cases, but an
individual’s privacy interests are generally secondary
when weighed against penitentiary safety and security.
Because “the permissibility of a particular practice is
judged by balancing its intrusion on the individual’s
Fourth Amendment interests against its promotion of
legitimate governmental interests” courts tend to “strike
this balance in favor of the procedures described by the
Warrant Clause of the Fourth Amendment” in “most
criminal cases.” See Skinner v. Railway Labor Executives’
Ass’n, 489 U.S. 602, 619, 109 S. Ct. 1402, 103 L.Ed.2d
639 (1989) (internal quotation marks omitted; citations
omitted).
These differing considerations explain the different
holdings in cases involving cavity searches of pretrial
detainees in the care and custody of a jail, and cavity
searches of individuals immediately upon their arrest.
Next, with regards to the Sanchez case, Respondents
have already explained Petitioner’s inaccurate citation;

15
Sanchez upheld the warrantless manual rectal search
of an inmate based on suspicion that the inmate was
concealing contraband. Sanchez, 590 F.3d at 43-44. As
such, it supports the Decision and refutes the suggestion
of a circuit split.
Finally, the decision in Rodriques is also inapposite
because it addressed the legality of a manual search
authorized by a warrant. Rodriques, 950 F.2d at 811.
There was no discussion of whether the search would
have been justified under a reasonable suspicion standard
because the warrant had been obtained in advance of
contact with the plaintiff. Id. Further, the case involved
an individual who had not yet been arrested. Rodriques
v. Furtado, 771 F. Supp. 1245, 1249 (D. Mass. 1991). In
sum, Rodriques has no bearing on the issue presented
by this Petition because the factual and legal issues are
completely unrelated.
In sum, none of the First Circuit cases cited by
Petitioner are instructive on the issue presented by this
Petition and none of the cases suggest the existence of a
split between the First and Seventh Circuit.
Sixth Circuit: United States v. Booker, 728 F.3d 535
(6th Cir. 2013)
The Sixth Circuit’s decision in Booker is distinguishable
from the present matter and, therefore, not relevant to the
determining the constitutional standard applied to cavity
searches of pretrial detainees in a general population
area of a jail. The purpose of the search in Booker was
“investigative” – it was meant to retrieve evidence to
support charges against the plaintiff. Booker, 728 F.3d a

16
546-47. Indeed, the court in Booker relied heavily upon
this Court’s decision in Winston v. Lee9 when coming to
its conclusion about the reasonableness of the search. Id.
(citing Winston v. Lee, 470 U.S. 753, 105 S. Ct. 1611, 84
L. Ed. 2d 662 (1985)). Further still, there is no indication
that the reasonable suspicion standard was inapplicable
or improper. The analysis was of the “substantive
reasonableness”10 of the search under the standards
set forth in Winston, not the constitutional standard
justifying the search. Booker, 728 F.3d at 546-47.
In addition, the institutional safety and security
concerns which justify warrantless searches in jails
and prisons were not present in Booker. Notably, when
providing the factual background of the case, the Sixth
Circuit specifically indicated that the decision to strip
search the plaintiff at the jail11 was not done pursuant to a
policy strip-searching all new inmates and there had been
no decision regarding whether Booker would ultimately be
placed into the general population of the facility. Booker,
728 F.3d at 538. These two facts distinguish the Booker
9. Winston addressed the reasonableness of a subcutaneous
search for the retrieval of evidence in a criminal matter. Winston,
470 U.S. at 759.
10. “(1) ‘[T]he extent to which the procedure may threaten
the safety or health of the individual,’ (2) ‘the extent of intrusion
upon the individual’s dignitary interests in personal privacy and
bodily integrity,’ and (3) ‘the community’s interest in fairly and
accurately determining guilt or innocence.’” Booker, 728 F.3d at
546 (quoting Winston, 470 U.S. at 761-62).
11. This visual search was done prior to bringing the plaintiff
to the hospital for the search that was ultimately at issue in the
case. Booker, 728 F.3d at 538.

17
case from Florence, which upheld strip searches, absent
reasonable suspicion, done pursuant to policy when an
individual was in the general prison population because
of safety and security concerns. Florence, 566 U.S. at
338-39. These facts also distinguish the case from the
present matter, as those considerations from Florence
were rightly considered in the Decision by the Seventh
Circuit. [See e.g., App. 8, 10.]
Because the underlying facts and legal analysis at
issue in Booker are distinguishable from the facts and
legal issue presented by this Petition, it does not support
the finding of a circuit split.
Ninth Circuit: United States v. Fowlkes, 804 F.3d
954 (9th Cir. 2015)
The Fowlkes decision likewise is not incongruent
with the Decision herein because it is premised on
distinguishable facts and differing legal principles. First
and foremost, the Court in Fowlkes never addressed
whether the seizure at issue required a warrant. See
Fowlkes, 804 F.3d 962 (“…we need not and do not
determine whether a warrant is required to seize evidence
discovered during a visual strip search from an inmate’s
body because the officers’ conduct here was unreasonable
for other reasons.” (emphasis added)). Rather, the Court
addressed the reasonableness of the seizure based on the
manner in which it was conducted. The Court held that an
officer’s removal of a plastic bag from the defendant’s anus
during the booking process constituted an unreasonable
seizure because the seizure was not conducted by medical
personnel to ensure the removal was safe and sanitary,
was aided by use of a taser, was conducted in the absence

18
of exigent circumstances, and was in violation of the
institutional policy. Fowlkes, 804 F.3d at 962, 967 (“No
single factor” was dispositive of the unreasonableness of
the seizure).
Second, the search in Fowlkes was conducted after an
arrest, during the booking process, and therefore was a
search incident to a lawful arrest. Id. at 959; see U.S. v.
Edwards, 415 U.S. 800, 804-05, 94 S. Ct. 1234, 39 L. Ed.
2d 771 (1974) (discussing search incident to arrest during
booking process). As noted previously, searches incident
to arrest implicate different individual and governmental
interests and are rightly evaluated under different
standards. See Gant, 556 U.S. at 338 (citations omitted);
Bell, 441 U.S. at 546-47.
Because the underlying facts and legal analysis in
Fowlkes are distinguishable from the facts and legal issue
presented by this Petition, it does not support the finding
of a circuit split.
Tenth Circuit: Hinkle v. Beckham County Board of
County Commissioners, 962 F.3d 1204 (10th Cir. 2020)
The Tenth Circuit’s decision in Hinkle is factually and
legally distinguishable from the present matter and does
not support the finding of a circuit split. The plaintiff in
Hinkle, who had been arrested without probable cause
or a warrant, was strip-searched upon his arrival at the
jail before the staff made a determination of whether he
would be placed into the general population of inmates.
Hinkle, 962 F.3d at 1214, 1236. As noted previously, this
Court’s decision in Florence upheld strip searches, absent
reasonable suspicion, which were conducted pursuant

19
to policy when an individual was in the general prison
population because of safety and security concerns.
Florence, 566 U.S. at 338-39. However, when an inmate
is not placed in the general prison population (or, as
with Hinkle, no determination had yet been made about
placing the plaintiff into the general prison population),
the warrant exception established by Florence was not
applicable because those security and safety concerns
which justify a warrantless search are simply not
present. Id.; Hinkle, 962 F.3d at 1237-38. Because the
warrant exception from Florence was not applicable in
Hinkle (but is applicable in the present matter), Hinkle
is distinguished and is not indicative of a circuit split on
the specific issue presented by this Petition.
II. This Petition Does Not Present an Issue of National
or Immediate Urgency.
In addition to arguing the existence of a (nonexistent) circuit split, Petitioner has argued that this
Court should grant the Petition because the question
presented is exceptionally important. While Respondents
do not dispute that a cavity search is a serious matter,
the question presented by this Petition is not novel
or unsettled, nor will its impact be as far reaching as
suggested, and it does not warrant review by this Court.
1. Petitioner urges that the searches are more
egregious, and therefore the issue presented by this
Petition is exceptionally important, because “[m]ost of
these detainees ‘are not dangerous’ and will be ‘released
from custody’ before or at the time their arrest is reviewed
by a judge.” [Petition, 28.] The suggestion that the severity
of a detainee’s charged crime should justify or limit the

20
types of allowable searches has already been rejected
by this Court. In Florence, the Court considered, and
summarily rejected, the idea that pretrial detainees
detained for “minor offenses” should be exempt from
certain searches based on the proffered justification
that those pretrial detainees “pose the least risk” of
smuggling contraband. Florence, 566 U.S. at 333-34. As
discussed in detail in Florence, “[p]eople detained for
minor offenses can turn out to be the most devious and
dangerous criminal” and “the seriousness of an offense is
a poor indicator of who has contraband….” Id. at 334. As
such, the type of crime that an individual has been charged
with has no bearing on allowable searches, and does not
elevate the question presented to national importance.
2. There is no evidence in the record or presented
in the Petition that suggests manual cavity searches of
pretrial detainees are happening en masse such that the
issue is of national importance. Though Petitioner cites to
the number of pretrial detainees generally incarcerated
at any given time, there is no suggestion that manual
or visual cavity searches on particular individuals with
reported contraband occur with any given frequency.
Therefore, there is no indication in the record or Petition
to suggest that a decision by this Court on the Petition
will have widespread national impact.
3. The question presented by this Petition already
has received guidance from this Court and numerous
Courts of Appeals across the country and therefore is
not an unsettled issue. This Court has already concluded
that pretrial detainees in the general population of a penal
institution may be subjected to strip searches and cavity
searches in response to the penal institution’s need for

21
safety and security without any semblance of a suspicion
that they may be carrying contraband. Florence, 566
U.S. at 338-39; Bell 441 U.S. at 558-59. Drawing on that
decision and the Court’s prior decision in Bell, Courts
of Appeals across the country extended the rulings to
add the reasonable suspicion requirement for individual
searches in an institutional context. See, e.g., Mary Beth
G. v. City of Chicago, 723 F.2d 1263, 1273 (7th Cir. 1983);
Swain v. Spinney, 117 F.3d 1, 7 (1st Cir.1997); Chapman
v. Nichols, 989 F.2d 393, 395 (10th Cir.1993). A decision
from this Court on the issue presented would simply affirm
what other Courts of Appeals have already concluded.
III. None of the Reasons Proffered by Petitioner
Make this Case the “Proper Vehicle” for the Issue
Presented.
Petitioner’s stated justifications for accepting this
Petition to address the issue presented are, in some
instances, overstated or irrelevant considerations.
1. As noted above, Florence rejected the notion that
those incarcerated for minor offenses should be exempt
from certain types of searches. Florence, 566 U.S. at
333-34. As such, the fact that Petitioner contends she was
arrested for a “minor offense” is of no bearing.
2. Second, the record does not suggest that Petitioner
was subjected to an unreasonable search after Respondents
concluded there was reasonable suspicion to request a
cavity search by a licensed physician. Though Petitioner
seems to suggest otherwise when she claims that the
physician’s headlight failure “concretizes the risks of
manual body-cavity searches…” the search was performed

22
in a reasonable manner, in a hygienic situation, by a
licensed physician, and Petitioner suffered no physical
ailments as a result. [App. 12-13.]
3. The fact that drugs or other contraband were not
located during the search likewise has no bearing on the
reasonableness or justification of the search.
4. The lower courts never had occasion to address
whether the information obtained by Respondents
constituted probable cause, because the lower courts
correctly concluded that the search did not require
probable cause before commencement. [App. 1-35.] As
such, the issue of whether the information presented
constituted probable cause would still need to be resolved
before the case could be concluded.
5. Petitioner’s argument that her Petition “bears out
the virtues of the question she advances” is essentially
a challenge to the District Court and Seventh Circuit’s
conclusions that there was reasonable suspicion to justify
the search. [Petition, 32.] Arguing misapplication of
established law is not a valid basis for accepting a petition
for writ of certiorari. [Rule 10.]
IV. The Seventh Circuit Decision was Correct.
The Petition should also be denied because the Decision
issued by the Seventh Circuit was correct; the appropriate
constitutional standard for the manual cavity search is
reasonable suspicion. The Seventh Circuit appropriately
analyzed the case through the lens of Bell and Florence,
given that this case involved weighing individual privacy
and liberty interests against governmental interests of

23
penal safety and security, rather than through the lens
of Schmerber v. California which involved governmental
interests of obtaining evidence in a criminal matter. The
justifications for the searches, as well as the legal analysis,
underlying Schmerber and cases that have followed are
distinguishable from cases involving pretrial detainees
housed in the general inmate population. Where there
is no intention to obtain evidence in criminal matters, a
court’s analysis should not be guided by Schmerber.12
1. Schmerber v. California evaluated the legality of a
warrantless blood draw after an OWI arrest. Schmerber,
384 U.S. 757, 758, 86 S. Ct. 1826, 16 L. Ed. 2d 908 (1966).
The legality of the search was evaluated under the search
incident to arrest exception to the Fourth Amendment’s
warrant requirement. Id. at 769. The purpose of the
search was to preserve evidence supporting the crime of
which the petitioner had been charged. Id. at 770-71. This
Court evaluated the need for a warrant prior to the search
with the understanding that the sole justification for the
search was to obtain evidence, which may be destroyed as
12. Petitioner also cites to Birchfield v. North Dakota
and Mitchell v. Wisconsin to argue for a warrant requirement.
[Petition, 33.] As with her prior citations, her reliance on Birchfield
and Mitchell to impose a warrant requirement in a penological
institution are misplaced. Birchfield analyzed searches incident
to arrest with the intention of obtaining evidence to support the
arrest. Birchfield, 136 S. Ct. 2160, 2174, 195 L. Ed. 2d 560 (2016).
Mitchell addressed the exigent circumstances exception to the
Fourth Amendment, similar to the issue presented by Schmerber.
Mitchell, 139 S. Ct. 2525, 2530, 204 L. Ed. 2d 1040 (2019). Neither
case justifies the imposition of a warrant requirement to conduct
a search of an inmate or pretrial detainee because neither case
addresses the specific issues and governmental interests at stake.

24
time progressed and thus present exigent circumstances
justifying a warrantless search, in order to support a
criminal charge against the petitioner. See id. at 766-772.
As this Court summarized in Winston v. Lee,
nearly twenty years after Schmerber was decided,
Schmerber provides the framework for analyzing “[t]he
reasonableness of surgical intrusions beneath the skin …
in which the individual’s interests in privacy and security
are weighed against … the community’s need for evidence
….” Winston, 470 U.S. at 760.
2. Bell, as discussed in detail supra, established a
framework for analyzing governmental actions in a penal
institution under the Fourth Amendment. See Bell, 441
U.S. at 547. Specifically, Bell established that actions which
may infringe on an individual’s constitutional rights are
“evaluated in the light of the central objective of prison
administration, safeguarding institutional security.”
Id. (citations omitted). When those considerations were
evaluated against the individual inmate’s interests, this
Court upheld a policy requiring visual cavity searches
and strip searches of pretrial detainees without any
particularized suspicion or indication that the inmate may
be concealing contraband. Id. at 558-59.
3. As noted in the Seventh Circuit’s Decision, Bell
(and, subsequently, Florence) addresses “circumstances
under which the special context of a jail—with the unique
challenges it presents—allows for suspicionless searches
of pretrial detainees’ body cavities.” [App. 7.] However, the
Seventh Circuit appropriately noted that this case did not
involve a suspicionless search pursuant to a general policy;
it involved a particular individual singled out for a search.

25
[App. 9.] The Seventh Circuit, therefore, concluded that
reasonable suspicion was required to justify the search.
[App. 9 (citing Jersey v. T.L.O., 469 U.S. 325, 342 n.8, 105
S. Ct. 733, 83 L. Ed. 2d 720 (1985)).] Rejecting Petitioner’s
request to “adopt a higher standard of suspicion and
require a warrant based on probable cause” for the cavity
search in jail, the Seventh Circuit noted “Bell and Florence
underscore the necessity of a jail’s ability to search those
under its care for contraband, for the protection of all
within its walls.” [App. 10.] The Seventh Circuit correctly
concluded that Schmerber (and Winston, which Petitioner
had also argued as justification for a warrant requirement)
were not applicable because a “search conducted for the
safety of the jail is one that furthers special needs beyond
the normal need for law enforcement, and ‘the public
interest is such that neither a warrant nor probable cause
is required.’” [App. 10 (quoting Maryland v. King, 569 U.S.
435, 447, 133 S. Ct. 435, 133 S. Ct. 1958 (2013); Maryland
v. Buie, 494 U.S. 325, 331, 110 S. Ct. 1093, 108 L. Ed. 2d.
276 (1990)).]
The analysis employed by the Seventh Circuit is the
correct framework for analyzing individual searches
of pretrial detainees, including strip and body cavity
searches (whether manual or visual). The analysis
correctly relies on applicable jurisprudence from this
Court, including Bell and Florence, to conclude that
reasonable suspicion, rather than a warrant, is required
before a search may be conducted. It is well-established
that the penal safety and security presents significant
governmental interests, distinguishable from those
presented in a criminal investigation context, which “make
the warrant and probable-cause requirement impractical.”
Skinner, 489 U.S. at 619 (quoting Griffin v. Wisconsin,

26
483 U.S. 868, 873, 107 S.Ct. 3164, 3168, 97 L.Ed.2d 709
(1987)). In the face of these governmental interests, this
Court “has not hesitated to balance the governmental and
privacy interests to assess the practicality of the warrant
and probable-cause requirements” and, in the case of
body cavity searches of inmates, have concluded that such
searches are permissible upon less than probable cause
Id. at 619-620. Accordingly, the Seventh Circuit’s Decision
was in congruence with this Court’s Fourth Amendment
jurisprudence and should not be disturbed.
CONCLUSION
The Respondents respectfully request the Petition for
Writ of Certiorari be denied.
Respectfully submitted this
24th day of February, 2021.
Danielle B. Tierney,
Counsel of Record
Lori M. Lubinsky
A xley Brynelson, LLP
Two East Mifflin Street,
Suite 200
Madison, WI 53703
(608) 257-5661
dtierney@axley.com
Counsel for Respondents

